                       National Archives and Records Administration
                                                                                              8601 Adelphi Road
                                                                             College Park, Maryland 20740-6001

Date       : October 26, 2009
Reply to
Attn of    : Office of Inspector General (OIG)

Subject    : OIG Report No. 10-01, National Historical Publications and Records Commission Grant No.
             2004-026 Supreme Court Historical Society

To         : Kathleen Williams—Executive Director, National
             Historical Publications and Records Commission

The Office of the Inspector General (OIG) completed an audit of a grant awarded by National
Archives and Records Administration’s (NARA) National Historical Publications and Records
Commission (NHPRC) to the Supreme Court Historical Society (SCHS). The grant award was
$762,320 for the period covering January 1, 2004 to December 31, 2006. This was a multi-year
grant project NHPRC began funding in 1977 for The Documentary History of the Supreme Court of
the United States, 1789-1800: an eight volume research and historical preservation project. The
performance objective of the subject grant project was to complete and publish the final two
volumes.

The objectives of this portion of the review were to determine whether (1) funds awarded were
utilized and expended in accordance with federal guidelines and (2) NARA objectives for issuing the
grant were accomplished. This audit report focuses on the results of our audit of the SCHS grant and
is part of a larger audit of NHPRC management controls over its grant process. As part of the larger
audit we selected several grants for review. Management control issues noted in the SCHS grant
review, as well as in the other grants reviewed, will be incorporated in a later report. The
background, scope and methodology sections for this audit can be found in attachment A.

Results of Audit Effort

Office of Management and Budget (OMB) Circular A-122 1 defines the requirements for grantees
specific to maintaining financial records which are subject to audit. Audit requirements do not allow
auditors to validate any portion of grant expenditures claimed based upon performance without
required supporting documentation. Thus, while SCHS successfully published the final two volumes
of The Documentary History of the Supreme Court of the United States, 1789-1800 project,
receiving favorable editorial reviews, we questioned the entire federal grant award of $762,320
because timesheets were not maintained to support/document labor costs incurred by SCHS.




1
    OMB Circular A-122 has been incorporated into 2 CFR 230.




                                       National Archives and Records Administration
Unsupported Labor Cost

We questioned the entire federal grant award of $762,320 provided to SCHS due to lack of
documentation/timesheets supporting labor cost. The grant agreement identified that all federal
funds were used for labor expenses. SCHS was unable to provide required personnel activity reports
or timesheets to support labor expenses reportedly incurred. SCHS personnel stated they were
unaware timesheets were required and, thus, did not have a process to record and document their
labor costs. Consistent with federal grant regulations, costs are reimbursable if they are reasonable,
allowable, allocable for the performance of the award, and adequately documented. Specifically,
OMB Circular A-122 states the distribution of salaries and wages to federal awards must be
documented by personnel activity reports (timesheets). SCHS has not complied with federal
regulations and we were unable to determine the validity of federal funds paid to SCHS.

During the audit we interviewed the SCHS Director, Assistant Director, and SCHS Project Director.
All three have been involved with the history of the Supreme Court project all 29 years and all stated
they were unaware timesheets were required. Both the SCHS Director and Assistant Director stated
they were aware of federal regulations associated with grant funding as these federal regulations
were identified in their grant agreement. However, both readily admitted they did not read the
applicable federal regulations.

Federal funds were used to pay most of the salaries and wages of three full-time employees and one
part-time employee. All employees reportedly worked on the grant project exclusively and were
paid a predetermined salary. The SCHS Project Director stated she monitored the hours and
productivity of the staff working on the grant project. However, without timecards for review, we
were unable to determine whether employees were consistently working full-time on the project.

OMB Circular A-122 Appendix B paragraph (8) (m) entitled Support of salaries and wages, states
activity reports must be maintained for all staff members whose compensation is charged, in whole
or in part, directly to awards and must have the following attributes: a) reflect an after-the-fact
determination of the actual activity of each employee (budget estimates do not qualify); (b) must
account for the total activity for which employees are compensated; (c) must be signed by the
individual employee, or by a responsible supervisory official; and (d) prepared at least monthly and
must coincide with one or more pay periods. As a result of SCHS’s omission to specifically account
for labor costs according to federal regulation, we question all of the costs for labor expenses.

Please provide your written comments within 45 days regarding actions planned to address the
questioned costs. Should you have any questions, or require additional information, please contact
me of James Springs, Assistant Inspector General for Audits at 301-837-3000.




Paul Brachfeld
Inspector General




                               National Archives and Records Administration
                                                                                        Attachment A

                        SUPPLEMENTARY AUDIT REPORT INFORMATION



BACKGROUND

The NHPRC supports activities to preserve, publish and encourage the use of documentary resources
related to the history of the United States. Each year the NHPRC receives a Congressional
appropriation from which it awards grants. Additionally, NHPRC staff implements NHPRC grant
program policies and guidelines, provides assistance and advice to potential applicants, and advises
the Commission on grant proposals.

Finally, NHPRC staff is also responsible for monitoring each grant awarded by the Commission. To
monitor grants awarded, NHPRC staff ensures the grantee submits (1) annual financial status and
narrative progress performance reports and (2) a final financial and narrative performance report.

NHPRC awarded $762,320 to SCHS for The Documentary History of the Supreme Court of the
United States, 1789-1800: a research and historical preservation project. This grant project’s goal
was to produce and publish the final two volumes of an eight volume series. The history of the
Supreme Court project began in 1977 and over a 29 year span NHPRC estimates they provided
$3,718,692 in total funding for this project. SCHS successfully completed the final two volumes;
the entire series received favorable review by the American Journal of Legal History and has been
cited in books, articles, and court opinions.

The SCHS was founded in 1974 by Chief Justice Warren E. Burger for the purpose of collecting and
preserving the history of the Supreme Court of the United States. To accomplish its mission, the
Supreme Court Historical Society conducts educational programs, supports historical research,
publishes books, journals, and electronic materials, and collects antiques and artifacts related to the
Court’s history.

The SCHS, located in Washington D.C., is a nonprofit corporation under Section 501 (c) (3) of the
Internal Revenue Code. SCHS, as a nonprofit corporation, is required to follow the cost principles
specified in OMB Circular A-122, Cost Principles for Non-Profit Organizations, and the Federal
administrative requirements contained in OMB Circular A-110, 2 Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations.




2
    OMB Circular A-110 has been incorporated into 2 CFR 215.




                                     National Archives and Records Administration
                                                                                         Attachment A

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our review were to determine whether (1) funds utilized were expended in
accordance with federal guidelines and (2) NARA objectives for issuing the grant were
accomplished. This audit report focuses on the results of our audit of the SCHS grant. A separate
report will be issued addressing the overall grant program administered by NHPRC and the results of
all grantees visited during the audit including SCHS.

To accomplish our objectives we reviewed NARA and OMB guidance pertaining to applying for,
awarding, and administering grants. We reviewed all NHPRC documentation relating to the SCHS
grant including the application, award notifications, interim and final narrative and financial reports,
deliverables and close-out evaluation documents. Additionally, we reviewed all reported cost-share
expenditures including health and retirement benefits, payroll taxes, travel expenses, professional
services, and office overhead expenses. Finally, we interviewed NHPRC and SCHS officials.

Our work was performed at Archives I and at the Supreme Court Historical Society both located in
Washington D.C. between April 2009 and August 2009. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




                                National Archives and Records Administration
National Archives and Records Administration
                   National Historical Publications and Records Commission
                                                                      National Archives and Records Administration
                                                                                      700 Pensylvallia Avenue, N W
                                                                                       Washington, DC 20408·0001



Date:      January 2 1, 20 I 0

To:        Paul Brachfeld
           Inspector General
           Office of Inspector General (D IG)

From:      Kathleen William s
           Executive Director, NHPRC

Subject:   Response to CIG Report No. 10-0 \ , National Historical Publications and Records
           Commission Grant No. 2004-026: Supreme Court Historical Society (SCHS)


           This response addresses Office of Inspector General (D IG) Report No. 10-0 1 (Report), which
           examined the Natio nal Historical Publications and Records Commission Grant No. 2004-026,
           Supreme Court Historical Society (Grant). The Report, which was issued by 0 10 on October
           26,2009, questioned the entire award 0($762,320 for the period covering January 1, 2004 to
           December 3 1, 2006, because timesheets were not maintained to support/document labor costs
           incurred by SCHS.

           The Repon correctly points out that timcsheets were not properly maintained by the Supreme
           Coun Historical Society (SCHS). SCHS did not keep a written account of the hours worked
           by stafT, and the NH PRC was unaware that the project lacked proper record keeping
           procedures.

           However, there is no indication of any fraud on the pan ofSCHS. NHPRC, with NGC's
           assistance, discussed the matter with SCHS in response 10 the Report . Both the SCHS
           Executive Director and the Project Director agreed that project staff devoted many hours 10
           the project, o nen in excess of what was expected, and all parties agree that the product was
           excellent. As a resuit, there is no doubt that the objectives and purposes of the Grant were
           met and that the government received the product it anticipated when making the Grant.

           Accordingly, we believe that the evidence as a whole is sufficient to substantiate that the
           federa l fund s granted were used in an appropriate manner by SCHS, and that there is no
           reason to consider seeking recovery of any of the fu nds. Ln conjunction with the discussion
           below about steps NHPRC will be taking 10 prevent fulure occurrences with its grantees,
           which will be further elaborated upon in the NHPRC's response to the O[G audil ofN HPRC's
           management control s over its grant processes, we consider this response as closing oul the
           Agency's responsibility under the Report.




                                 NIfPRC:t web jill' is hllp:/Iwww. Qrchi\·I.$. gQ~/nhprc
Discussion

SCI·IS record keeping and staffing

In response to the Report, the HPRC detennined that following up with SCHS was
appropriate to discuss the lack of recordkeeping, and to ask whether or not staff worked on the
project in a manner consistent with the grant application and award.

Accordingly, NGC staff spoke with David Pride, SCHS Executive Director, and Project
Director, Maeva Marcus. Both Dr. Pride and Dr. Marcus con tinned that timesheets had not
been kept, and as noted in the Report they said they were not aware of that requirement. Dr.
Pride noted that although he was not always in the same building as project staff, whenever he
called the phone was answe red, and it was his impression that Dr. Marcus ran a "tight ship."
He said that the last three years of the project were particularly busy since the office space
was slated to be given away at the project 's end.

Dr. Marcus finnly asserted that staff devoted many hours to the project, and that she and her
staff often put in more than 40 hours per week. She said that the Documentary History was
not li ke an academic research project where staff spends hours doing research that mayor
may not be directly related to the project. Her staff was foc used on the Documentary History
project.

Based on these discussions and the quality of the product received, it appears to the NHPRC
that SCHS used the Grant award for the purposes it was intended and there has been no loss to
the government.

Quality of product and ob jectives met

As noted by OIG , the product produced, the fina l two volumes of The Documentary History 0/
the Supreme Court o/the United States, /789-/800, received favorable editorial reviews, as
well as praise from the Supreme Court (several of the Justices were readers and on the Board
of Advisors).

Moreover, there is little doubt that the objectives and purposes of the Grant were met. The
Grant had eight specific perfonnance objecti ves:

             Volume 7

             I. Publi sh.

             Volume 8

             2.   Complete transcription and proofreading of documents.
             3.   Draft annotation and headnotes.
             4.   Prepare fron t matter and ill ustrations.
             5.   Submit manuscript to the press.



                            NHPRC's web site is hup:llwlVw.archi\lls.gov/"hprc
              6. Check page proofs and compile index.
              7. Publish volume.

              General

              Submit interim narrative reports and final financial report in a timely manner.

With the exception of the General Objecti ve, whi ch scored 40% due to late submission of
several reports, all the other objecti ves were full y met. The Grant was closed out on
November 13,2007, upon receipt of copies of the vo lumes.

From the perspecti ve of meeting Grant objecti ves and producing a worthy product, the Grant
was very successful, and it is clear that the government received the product it anticipated
when making the Grant. Although perhaps not concl usive by itself, the fact thal lhe product
was excellent and the objectives were met indicates that the federal fu nds advanced were used
in an appropriate manner.

Steps to prevent reoccurrences in thc fu ture

At the time the Grant was awarded, the Notificati on package included a separate sheet entitled
" Important Notice to NHPRC Grant Recipients." It infonned recipients that they must be
ready and able to comply with all federa l rules and regulations, and pointed out the location of
the rules in the Code of Federal Regulations (CFR). Simi larly, the Notification Letter
specified that admini stration of the award would confonn to specified sections of the CFR,
N HPRC Grant Guidelines, and OMB Circulars A-1 22 (Cost Principles fo r Nonprofi t
Organizations) and A-1 33 (Audits of State, Local Governments, and Non-Profit
Organ izations).

Given what Dr. Pride and Dr. Mavis reported, it is clear that furth er steps need to be taken to
make recipients aware of their specific obligations. Going forward, all applicants will receive
more direct notice of paperwork requirements beyond being provided with links and being
told to comply. Upon receiving an award, the authorizing officials, as well as the program
director, will have to initial and sign a document noting paperwork requirements. Upon
closing out a grant, grantees will be reminded in writing to hold onto paperwork for at least
three years. NI-IPRC wi ll also take steps throughout the life of the Grant to ensure that
grantees compl y with these requirements.

A more elaborate description of those sleps wi ll be included in our response to the broader
OI G report.

Conclusion

Despite the timesheet record keeping fl aw, we believe that we have been able to substantiate
that the Grant funds were used appropri ately. The objectives of the Grant were met, the
product received was unquestionably of high quality, and totality of the circumstances show
that the efforts of the Grantee essentially matched what was promised in the application.



                          NHPRC'5 web 5ile i5 hllp://wlI'w.archil"es.gov/nhprc
Accordingly, we will take no further action on this Grant and do not believe that seeking
recovery of any of the fund s would be appropriate, However, as stated above, goi ng forward
the NHPRC wi ll take steps to prevent reoccurrences.

Should you have furthe r questions, please contact me at 202-357-5263.


~t;~;HU4
KATHLEEN WILLIAMS
Executi ve Director
NHPRC




                         NHPRC 's web site is hllp:lllI'wlI'.archil'es.go\1nhprc
